                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




          We received an allegation that an NSF Program Officer (PO) made funding recommendations for
          a particular funding competition based on the ethnicity of Principal 1n~esti~ators.l
                                                                                            Our review of
          information in NSF databases disproved the allegation. Specifically, we determined that the
          PO'S recommendations were aligned with panel assessments of intellectual merit and broader
          impacts. We found no evidence of bias on the part of the PO. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
